                      D EPARTMENT OF HEALTH A1~'D HUNIAN SERVICES


                OFFICE OF INSPECTOR GENERAL
                                        WASHINGTON, DC 2020 l



                                             AUG 2 9 2013
TO:              Marilyn Tavenner
                 Administrator
                 Centers for Medicare & Medicaid Services
                      /S/
FROM:            Stuart Wright
                 Deputy Inspector General
                   for Evaluation and Inspections


SUBJECT: 	 Recommendation Followup Memorandum Report: Frequency of
           Medicare Recertification Surveys for Hospices Is Unimproved,
           OEI-06-13-00130


This memorandum report follows up on an unimplemented recommendation regarding the
frequency of hospice recertification surveys conducted by State survey agencies to ensure
compliance with Medicare conditions of participation (CoPs). To assess hospice
compliance, the Centers for Medicare & Medicaid Services (CMS) contracts with State
survey agencies to conduct onsite surveys of hospices. In the 2007 Office of Inspector
General (OIG) report Medicare Hospices: Certification and Centers for Medicare &
Medicaid Services Oversight, we found that the most recent recertification survey for
14 percent of State-surveyed hospices had occurred more than 6 years before our index
date of July 5, 2005, with the length of time between the most recent survey and the index
date averaging 9 years.' Further, when surveys did occur, 46 percent of the surveyed
hospices received citations for health care deficiencies, with the most frequently cited
deficiencies related to care planning and quality issues.

We recommended that CMS seek statutory or regulatory timeframes for the frequency of
hospice recertification surveys by State survey agencies and suggested a timeframe of
3 years. CMS did not concur with the recommendation, indicating that conducting more
frequent surveys would require congressional action to allocate additional resources.
CMS policy sets targets for the frequency of hospice recertification surveys by State
survey agencies. These targets vary over time based on available resources and priorities.
To determine whether the frequency of hospice recertification surveys had changed since
our prior report, we compared current survey frequencies to our prior findings.




1
 Office of Inspector General (OIG), Medicare Hospices: Certification and Centers for Medicare
& Medicaid Services (CMS) Oversight (OEI-06-05-00260), April2007 .
Page 2 – Marilyn Tavenner


SUMMARY

We found that the frequency of recertification surveys had not improved since 2005. As
of the index date of February 28, 2013, 17 percent of State-surveyed hospices had not
been recertified within the preceding 6 years, with some hospices experiencing longer
intervals since their most recent survey. This finding confirms that the frequency for
recertification surveys has not improved since 2005, when 14 percent of hospices had not
been surveyed in 6 years. We also found that in 12 States, more than 25 percent of
hospices had not been recertified within the last 6 years. These findings (1) suggest that
CMS’s use of fluctuating annual targets does not ensure timely recertification surveys of
all hospices and (2) raise concerns about whether CMS and contracted State survey
agencies can ensure that hospices comply with Medicare CoPs and quality-of-care
requirements for hospices. Therefore, we reiterate the recommendation that CMS set
specific timeframes for the frequency of hospice recertification surveys.

BACKGROUND

The goals of hospice care are to help terminally ill patients live comfortably with minimal
disruption and to support patients’ families and other caregivers throughout the dying
process.2 Generally, hospices provide services to patients and their families in their
homes; in a hospital, skilled nursing facility, or other nursing facility; or in a freestanding
inpatient hospice facility. In 2011, Medicare paid for 84 percent of all hospice services
provided nationally.3

Recent Growth of Hospice
Between 2005 and 2011, Medicare payments to hospices increased from $8.2 billion to
approximately $13.8 billion.4 The number of hospices certified for Medicare increased by
43 percent, from 2,537 in 2005 to 3,632 in 2011.5 In the same period, the number of
Medicare beneficiaries receiving hospice services increased from 871,249 to over
1.2 million.6, 7

CMS Oversight of Hospice
Medicare Certification. State survey agencies, contracted by CMS and following CMS’s
survey protocol and guidelines, conduct surveys of hospices at the time of initial
certification, for recertification, and in response to complaints. As an alternative to initial
certification or recertification surveys by State survey agencies, hospice providers may
seek to have these surveys conducted by an accrediting organization with CMS-granted
“deeming” authority.8, 9 Accrediting organizations use their own survey protocols and

2
  CMS, Brief Summaries of Medicare & Medicaid, Title XVIII and Title XIX of the Social Security Act, p. 9,

November 2, 2011. 

3
  Ibid., p. 10. 

4
  Medicare Payment Advisory Commission (MedPAC), Report to the Congress: Medicare Payment Policy, 

p. 261, March 2013. Accessed at http://www.medpac.gov/chapters/mar13_ch12.pdf on June 17, 2013. 

5
  CMS, CMS Financial Report Fiscal Year 2012, Pub. No. 954940, p. 147, November 15, 2012. 

6
  CMS, Medicare Hospice Data. Accessed at http://www.cms.gov/Medicare/Medicare-Fee-for-Service-
Payment/Hospice/Medicare_Hospice_Data.html on August 20, 20133. 

7
  MedPAC, loc. cit. 

8
  Social Security Act, § 1865(a)(1); 42 U.S.C. 1395bb(a)(1).


Frequency of Medicare Recertification Surveys for Hospices Is Unimproved (OEI-06-13-00130)
Page 3 – Marilyn Tavenner


include standards that ensure compliance with Medicare’s CoPs. According to staff of
the three accreditation organizations, their policies require that they conduct accreditation
surveys every 3 years for accredited hospices, which are subsequently deemed by CMS
as meeting Medicare requirements.

CMS does not have a legislative or regulatory standard for the frequency of hospice
recertification surveys. Instead, CMS policy establishes annual targets for survey
frequency based on available resources that year.10 For example, in 2005 CMS directed
State survey agencies to conduct onsite surveys of individual hospices at least every
6 years, which changed to 8 years in 2006; in 2013, the target is 6.5 years.11 Additionally,
for 2013, CMS directed State survey agencies to achieve a Statewide average of
conducting surveys at least once every 6 years across all State-surveyed hospices. In
comparison, the recertification intervals for certain other types of Medicare providers are
set by Federal statute or regulation. For example, nursing homes and home health
agencies are required to be recertified every 15 months and every 36 months,
respectively.12

Additional Quality Oversight. The Patient Protection and Affordable Care Act (ACA)
authorized CMS to collect additional data in an effort to ensure the quality of care
provided by hospices to beneficiaries and to address potential concerns.13 Beginning in
2012, CMS required hospices to submit data on two quality measures: a structural
measure and a pain measure.14 For FY 2014 and each subsequent year, the ACA
mandates a reduction in payments for hospices that do not comply with the reporting
requirements.15

The reporting requirements from 2012 will soon be replaced by new ones. On August 7,
2013, CMS issued a final rule that further enhanced its quality oversight in two ways.
First, the final rule changes the requirements for the hospice quality-reporting program by
discontinuing the currently reported measures and—beginning July 1, 2014—
implementing a Hospice Item Set with seven measures endorsed by the National Quality
9
  CMS has deemed three accrediting organization—the Accreditation Commission for Health Care, Inc.;

the Community Health Accreditation Program; and The Joint Commission—as having standards that meet

or exceed Medicare hospice survey certification requirements. 

10
   These fluctuating targets are identified in CMS’s annual Mission and Priority Document. CMS, Survey

and Certification Group, Center for Clinical Standards and Quality, Quality Assurance for the Medicare 

& Medicaid Programs, FY [Fiscal Year] 2013 MPD, Survey and Certification, November 21, 2012. 

11
   CMS, Survey and Certification Group, Center for Clinical Standards and Quality, Prudent Action for the 

FY 2012 Medicare Survey & Certification (S&C) Budget, S&C 12-12-ALL, December 9, 2011. 

12
   Social Security Act, § 1919(g)(2)(A)(iii)(I), 42 U.S.C. § 1396r(g)(2)(A)(iii)(I), Requirements for Nursing 

Facilities, and 42 CFR 488.308(a), Survey Frequency, Basic Period; Social Security Act, § 1891(c)(2)(A), 

42 U.S.C. § 1395bbb(c)(2)(A), CoPs for Home Health Agencies, and 42 CFR 488.730(a), Survey 

Frequency, Basic Period. 

13
   ACA, P.L. 111-148 § 3004(c)(2) (codified at 42 U.S.C. §1395f(i)(5)). 

14
   CMS, Technical User’s Guide for Hospice Quality Reporting Data Entry and Submission, Version 1.5,

January 1–April 1, 2013. Accessed at http://www.QTSO.com/hospicetrain.html on April 30, 2013. The 

“structural measure” includes hospice-selected care topics for which the hospice has at least one quality 

indicator in its Quality Assessment and Performance Improvement Program. The “pain measure” includes 

“the percentage of patients who report being uncomfortable because of pain at the initial assessment […] 

who report pain was brought to a comfortable level within 48 hours.”

15
   ACA, § 3004(c)(2) (codified at 42 U.S.C. §1395f(i)(5)) .


Frequency of Medicare Recertification Surveys for Hospices Is Unimproved (OEI-06-13-00130)
Page 4 – Marilyn Tavenner


Forum. Second, effective January 1, 2015, CMS will implement the hospice Experience
of Care Survey to gather feedback from hospice patients and family members regarding
their experiences and satisfaction with hospice care.16

Related Reports
In addition to the 2007 hospice study that reported long periods of time between hospice
recertification surveys, recent OIG and media reports have raised concerns about aspects
of hospice care. OIG reports have included concerns about hospices that rely heavily on
beneficiaries who reside in nursing facilities and the high percentage of hospice claims
for such beneficiaries that did not meet requirements for Medicare hospice coverage.17
Recent media reports indicate that some hospices may bill Medicare inappropriately for
services provided to patients who do not meet requirements for hospice coverage.18

METHODOLOGY

To determine survey frequency, we analyzed all hospice survey data maintained in
CMS’s Certification and Survey Provider Enhanced Reporting (CASPER) system as of
the index date of February 28, 2013, the date OIG received the CASPER data. We also
obtained Medicare payment data for each hospice from CMS’s National Claims History
File for 2011, the most recent year for which we had complete claims data at the time of
analysis.

From CASPER, we identified those hospices that State survey agencies had certified on
behalf of Medicare, excluding those hospices surveyed by the three accreditation
associations. We then used the National Claims History File to identify hospices that
received Medicare payments for hospice services provided during 2011. Using these
criteria, we examined the study population of 2,483 hospices across 54 States and
Territories, hereafter referred to as State-surveyed hospices.

We determined the certification survey frequency for each State-surveyed hospice by
calculating the time between the date of the most recent certification survey (either initial
certification or recertification) and the index date, February 28, 2013. In keeping with
the prior report, we used only the dates for certification surveys, not complaint surveys.
We determined the proportion of hospices—both nationally and by State—that had not
been surveyed within the 6 years preceding the index date and compared those results to
our prior findings.




16
   78 Fed. Reg. 48234–48281 (August 7, 2013). Accessed at https://federalregister.gov/a/2013-18838 on

August 7, 2013. 

17
   Recent hospice reports by OIG include Medicare Hospice Care for Beneficiaries in Nursing Facilities: 

Compliance With Medicare Coverage Requirements (OEI-02-06-00221), Medicare Hospices that Focus on 

Nursing Facility Residents (OEI-02-10-00070), and Medicare Hospice: Use of General Inpatient Care

(OEI-02-10-00490). 

18
   Kaiser Health News, Slowly dying patients, an audit and a hospice’s undoing, January 16, 2013. 

Accessed at http://www.kaiserhealthnews.org/stories/2013/january/16/san-diego-hospice.aspx on June 10, 

2013. 


Frequency of Medicare Recertification Surveys for Hospices Is Unimproved (OEI-06-13-00130)
Page 5 – Marilyn Tavenner


Limitations
As stated, we used 2011 Medicare claims data to identify the hospices for analysis. As a
result, it is possible that our analysis included some hospices that left the Medicare
program after 2011. We believe that these limitations have minimal effect on the report’s
main objective—to assess whether survey frequency has improved since 2005—chiefly
because the prior study and findings had similar limitations based on data availability at
the time of each set of analyses.

As in the prior report, we did not verify with State survey agencies the dates maintained
in CASPER.

Standards
This study was conducted in accordance with the Quality Standards for Inspection and
Evaluation issued by the Council of the Inspectors General on Integrity and Efficiency.

RESULTS

The frequency of hospice recertification surveys has not improved since 2005, with
17 percent of State-surveyed hospices not having been recertified within the last
6 years
We found that 17 percent of State-surveyed hospices (416 of 2,483) had not received a
recertification survey within the 6 years preceding the index date of February 28, 2013.
These results are similar to our prior findings, where 14 percent of hospices had not been
recertified within 6 years. Among the 416 hospices not recertified within the preceding
6 years, the length of time between the most recent survey and the index date averaged
8.4 years and ranged as high as 22 years. These 416 hospices provided services to
121,868 Medicare beneficiaries in 2011 and received almost $1.4 billion in Medicare
payments.

The remaining 83 percent of State-surveyed hospices (2,067 of 2,483) had been
recertified within the preceding 6 years. Of these, 49 percent (1,212 of 2,483) had been
recertified within the preceding 3 years, which is the survey frequency standard set by
accrediting organizations for hospices. The remaining 34 percent (855 of 2,483) had
been recertified between 3 and 6 years before the index date. (See Figure 1.)




Frequency of Medicare Recertification Surveys for Hospices Is Unimproved (OEI-06-13-00130)
Page 6 – Marilyn Tavenner


Figure 1: Hospice Recertification Survey Intervals, 2013



                                                                                                        12.1+ yrs (1%)
                                           3.1–6.0 yrs                                                  9.1–12.0 yrs (3%)
                                              (34%)


                                                              6.1+ yrs
                                                               (17%)
                                                                                                        6.1–9.0 yrs (13%)
                                     0–3.0 yrs
                                      (49%)




     Source: OIG analysis of CMS-provided data on survey frequency, February 28, 2013.


In 12 States, more than one-quarter of State-surveyed hospices had not been recertified
within the preceding 6 years
More than 25 percent of the State-surveyed hospices in 12 States did not receive a
recertification survey within the 6 years preceding the index date.19 (See Table 1.)
Among these hospices, the average length of time between the most recent survey and the
index date was 8.8 years. For 3 of these 12 States, the proportion of hospices that had not
received a recertification survey within the preceding 6 years was over 50 percent. The
334 hospices that did not receive recertification surveys within the preceding 6 years in
these 12 States provided services to nearly 100,000 Medicare beneficiaries and received
more than $1.1 billion in Medicare payments in 2011. (See Appendix A for a listing of
all States and their survey frequencies.)

Table 1: States with More than 25 Percent of Hospices with Survey Cycles of More Than
6 Years*
                                                        Number of hospices in State that              Percentage of hospices in State
                                    Number of
State                                                     did not receive a survey in the              that did not receive a survey in
                              hospices in State
                                                                       preceding 6 years                         the preceding 6 years
Oklahoma                                       109                                     80                                        73.4%
Idaho                                           29                                     20                                        69.0%
California                                     123                                     66                                        53.7%
Washington                                      21                                     10                                        47.6%
Louisiana                                      112                                     51                                        45.5%
Nevada                                          11                                      5                                        45.5%
Nebraska                                        29                                     13                                        44.8%
Iowa                                            63                                     26                                        41.3%
North Carolina                                  44                                     18                                        40.9%
Kansas                                          52                                     16                                        30.8%
New Jersey                                      33                                      9                                        27.3%
Missouri                                        76                                     20                                        26.3%
  Total                                        702                                   334
Source: OIG analysis of CMS-provided data on survey frequency, February 28, 2013.

*This analysis did not include the 9 States and Territories that each had fewer than 10 hospices. 





19
     We did not include in this analysis the 9 States and Territories that each had fewer than 10 hospices.

Frequency of Medicare Recertification Surveys for Hospices Is Unimproved (OEI-06-13-00130)
Page 7 – Marilyn Tavenner


CONCLUSION

These findings illustrate that CMS’s use of fluctuating annual targets does not ensure
timely recertification surveys of all hospices and raises concerns about whether CMS and
contracted State survey agencies can adequately oversee hospice compliance with
Medicare CoPs and the quality-of-care requirements for hospices. Our research also
indicates that hospices are often out of compliance; the 2007 report found that almost half
of hospices were cited with deficiencies when surveyed. Further, more recent OIG
reports identified quality-of-care concerns regarding hospice care provided in nursing
homes.

We reiterate the recommendation that CMS set specific timeframes for the frequency of
hospice recertification surveys. This should be accomplished by seeking legislation or
promulgating regulations. Embedding in regulation a standard for survey frequency
would elevate State responsibility to meet such a standard, and therefore better ensure
that hospices are surveyed more timely. CMS could consider setting this survey
frequency standard at 3 years, to match the 3-year interval used by accrediting
organizations (as approved by CMS); however, given resource limitations, setting a
mandatory frequency—even for an interval of more than 3 years—could help to ensure
improvement in survey frequency and avoid lengthy intervals between surveys for
individual hospices. Although we understand that the new quality-reporting requirements
established by CMS have the potential for improving the quality of care for hospice
patients, we will not know the outcomes of these processes for a few years. Once the
requirements are fully implemented, available data should provide CMS with information
to identify those hospices that appear more problematic and thus should be the focus of
further review by State agencies.

This report is being issued directly in final form because it contains no new
recommendations. If you have comments or questions about this report, please provide
them within 60 days. Please refer to report number OEI-06-13-00130 in all
correspondence.




Frequency of Medicare Recertification Surveys for Hospices Is Unimproved (OEI-06-13-00130)
Page 8 – Marilyn Tavenner


APPENDIX A

States’ Hospice Certification Survey Frequencies

                                                                                                          Percentage of
                                          Number of hospices         Average survey frequency      hospices in State that
                        Number of         in State that did not        of hospices in State that       did not receive a
                         hospices          receive a survey in       did not receive a survey in           survey in the
State                     in State      the preceding 6 years             the preceding 6 years       preceding 6 years
Alabama                          95                            0                               0                    0.0%
Alaska                            2                            0                               0                    0.0%
Arizona                          43                            0                               0                    0.0%
Arkansas                         50                            9                             6.3                   18.0%
California                      123                           66                            13.1                   53.7%
Colorado                         36                            1                             6.3                    2.8%
Connecticut                      24                            1                             6.7                    4.2%
Delaware                          4                            0                               0                    0.0%
District of Columbia              3                            0                               0                    0.0%
Florida                          23                            5                             6.7                   21.7%
Georgia                         131                            0                               0                    0.0%
Guam                              2                            1                             6.1                   50.0%
Hawaii                            7                            2                             6.7                   28.6%
Idaho                            29                           20                             7.5                   69.0%
Illinois                         69                            0                               0                    0.0%
Indiana                          64                            0                               0                    0.0%
Iowa                             63                           24                             7.7                   38.1%
Kansas                           52                           16                             7.0                   30.8%
Kentucky                         15                            0                               0                    0.0%
Louisiana                       112                           51                             7.7                   45.5%
Maine                             8                            0                               0                    0.0%
Maryland                         18                            1                             6.2                    5.6%
Massachusetts                    55                            3                             6.1                    5.5%
Michigan                         42                            5                             6.3                   11.9%
Minnesota                        52                           11                             6.6                   21.2%
Mississippi                      91                            8                             6.2                    8.8%
Missouri                         76                           20                             6.7                   26.3%
Montana                          26                            0                               0                    0.0%
Nebraska                         29                           13                             7.4                   44.8%
Nevada                           11                            5                             7.8                   45.5%
New Hampshire                    19                            0                               0                    0.0%
New Jersey                       33                            9                             6.7                   27.3%
New Mexico                       29                            5                             7.5                   17.2%
New York                         38                            0                               0                    0.0%
North Carolina                   44                           18                             7.4                   40.9%
North Dakota                     13                            1                             6.8                    7.7%
Ohio                             70                            0                               0                    0.0%
Oklahoma                        109                           80                             8.8                   73.4%
Oregon                           42                            4                             6.3                    9.5%
Pennsylvania                    147                            0                               0                    0.0%
Puerto Rico                      34                            2                             6.5                    5.9%
Rhode Island                      1                            0                               0                    0.0%
South Carolina                   72                            0                               0                    0.0%
South Dakota                     13                            0                               0                    0.0%
Tennessee                        35                            2                             6.5                    5.7%
Texas                           194                            5                             6.4                    2.6%
Utah                             61                           15                             6.9                   24.6%
Vermont                           5                            0                               0                    0.0%
Virgin Islands                    3                            0                               0                    0.0%
Virginia                         59                            1                             6.0                    1.7%
Washington                       21                            9                             6.8                   42.9%
West Virginia                    18                            0                               0                    0.0%
Wisconsin                        49                            0                               0                    0.0%
Wyoming                          19                            0                               0                    0.0%
 Totals                       2,483                          416

Source: OIG analysis of CMS-provided data on survey frequency, February 28, 2013.




Frequency of Medicare Recertification Surveys for Hospices Is Unimproved (OEI-06-13-00130)
